.'
 '.                                                        / ~- ~ 

                                                            .j'




                                                              ~~~OF

       s. DEPARTMENT OF COMMERCE
               Office of Inspector General                                      'fi
                                                                  ~4TES of t'




               NA TIONAL OCEANICAND
      ATMOSPHERIC ADMINISTRATION




        Environmental Technology Laboratory
            Needs to Improve Internal Controls
       For Accounting and Funds Management
               Report No. BTD- 14852- 0001 /September 2003




                  PUBLIC RELEASE





            Office of Audits, Business and Trade Audits Division
                                                                                                            ................
                                                        .. ..... .. .. .. . .. .. .. .. .. . ...... .. ... ....              . .. ...........................
                                                                                                                   ... .. ...................
                                                                                                                                  ... .. ... .. . .............      . .. ......
                                                                                                                                                       .. . ... .. .......
                                                                                                                .. ;..........................................
                          .. . .. .. . .. ... . .. . ........................................................................................................                     ;.......................

                                                                                                                                                                               ....  ~.................
                                                                                                                                                                          . ..............
                                                                                                                                                                               ... ...         :..........
                                                                                                                                                                                             .............
                                                                                                                                                                                    ................
                                                                                                                                                                                               ...........
                                                                                                                                                                                       .. .. ...
                                                                                                                                                                                    .......                ....
                                                                                                                                                                                                 .. .. .. ....
                                                                                                                                                                                                           .........
                                                                                                                                                                                                                .




                                                                TABLE OF CONTENTS

EXECUTIVE SUMMARY.............................................................................................................. i


WTRODUCTION............................................................................................................................


OBJECTIVES , SCOPE , AND METHODOLOGY......... ....................................... ..........


FINDWGS AND RECOMMENDATIONS................................................................................ ....


I. ETL Needs to hnprove Full Cost Recovery for Reimbursable Tasks ........................................


          A. ETL improperly charged expenditures from unrelated reimbursable tasks to DOD'
              task .................................................................................................................................
          B. ETL inappropriately transferred expenditures from a reimbursable task to an
              appropriated- funds task .......................................................................
          C. Inappropriate use of expenditure transfers suggests a cost recovery problem that
              OAR has been slow to address.......................................................................................
          D. Letters of intent do not protect ETL against funding shortfalls .....................................

          E. Critical MOU did not receive required Office of General Counsel legal review ........

         F. Recommendations.................................................................... ............................... ...... 1 0

         G. NOM' s Response to Recommendations ....................................................................

         H. OIG Comments..... ...................................... .


ll. ETL Needs to hnprove Internal Controls for Accounting and Funds Management.................

         A. ETL improperly transferred expenditures from a NOM task to a reimbursable
               task.. .
         B. ETL inappropriately transferred expenditures and obligations among NOM
            programs in fiscal years 2000 and 2001..
         C. Recommendations ........................................................................................................

         D. NOM' s Response to Recommendations ....................................................................

         E. OIG Comments............................................................................................................ .


III. ETL Should Decrease Its Reliance on Reimbursable Funds to Support Staff........................ 16


         A. Over-reliance on DOD for significant funding is risky.........................

         B.   ETLand OAR need NOM support to implement a business plan consistent with
               NOM' s mission and funding realities.. .............
         C. Recommendation................................................. ...................................................... ...

         D. NOM' s Response to Recommendation...................................................................... 19

         D. OIG Comments.. 

IV. More Timely Congressional Notification for Reprogramming Is Needed .............................


       A. Recommendations........................................................................................................

       B. NOM' s Response to Recommendations ....................................................................

       C. OIG Comments........................................................................................................... .


V. Appendix I - NOM' s Response to the Draft Report
               ,"



 u.s. Department of Commerce                                                    Report No. BTD- 14852- 0001
 Office of Inspector General                                                                      September 2003


                                          EXECUTIVE SUMMARY

The Office of Inspector General conducted a performance audit of the Environmental
Technology Laboratory (ETL) to (1) evaluate ETL' s compliance with applicable laws
regulations , policies , and procedures; (2) assess its internal controls; (3) examine its
administration, management , and oversight of activities for which it receives reimbursement; and
(4) determine whether it properly identifies , records , and recovers costs of reimbursable .
activities. The audit was prompted by a Department of Defense Office of Inspector General
review, which concluded that ETL had inappropriately charged $1. 6 million of unrelated or
unsupported costs to the DOD/ETL Advanced Sensor Applications Program Joint Project during
fiscal years 1998 , 1999 and 2000.

Our audit primarily examined ETL operations and activities that occurred during fiscal years
2000 2001 , and through May 2002. We also obtained additional updates and conducted limited
follow-up and analysis through May 2003.

The Environmental Technology Laboratory in Boulder, Colorado , develops remote sensing
instrumentation that allows meteorologists and oceanographers to peer inside the Earth'
atmosphere and oceans. ETL works with a variety of organizations-local , federal , and
international agencies , as well as universities and private corporations-to improve
understanding of the atmospheric and oceanic processes that govern our weather and climate
and to develop new remote sensing systems.

We found that ETL (1) did not comply with the Economy Act , 31 U. C. 1535 , which requires
payment or adjustment of amounts paid on the basis of the actual cost of goods or services
provided, or Department and NOM policies and procedures for full cost recovery of
reimbursable work, and (2) inappropriately transferred expenditures between unrelated
reimbursable tasks and between appropriated- funds tasks and reimbursable tasks. 2 Also , ETL
did not submit the 2002 Memorandum of Understanding governing its work for DOD for legal
review , despite NOM requirements and Departmental guidance to do so. We recommend that
the Under Secretary of Commerce for Oceans and Atmosphere direct the Assistant Administrator
of the Office of Oceanic and Atmospheric Research (OAR) to ensure that:

     1. The Director     ofETL ensure~ that the full cost of providing services for others is

         recovered;


    2. The   Di!,ector ofETL ensures that the reasons for accounting transactions , us~d to transfer
         expenditures or obligations related to reimbursable tasks , are fully documented in ETL'
         accounting records;



1 Department
               of Defense Office of Inspector General , November 23 2001 Advanced Sensor Applications Program

Joint Project Report No. D- 2002- 017 , p. i.

2 For this report
                   appropriated-funds task" refers to an activity that was funded through NOAA direct appropriation.

 Reimbursable task" refers to an activity that was paid for with non-NOAA funds.
u.s. Department of Commerce                                                 Report No. BTD- 14852- 0001
Office of Inspector General                                                               September 2003


    3. OAR' s Chief Financial Officer, in consultation with NOM' s and the Department'
        Chief Financial Officers and the Department' s Assistant General Counsel for
        Administration, reviews the appropriateness of OAR' s practice of utilizing current fiscal
        year appropriations to satisfy obligations or expenditures incurred in prior years; and

    4. Compliance with              requirements for legal review of agreements, as contained in NOM'
        Reimbursable Task Planning Handbook 
              is achieved (See page 10.

Our audit also identified significant instances of noncompliance with Department and NOM
policies and procedures for administrative control of funds. We found that in fiscal year 2000,
ETL inappropriately transferred expenditures from a NOM task performed during fiscal years
1995- 97 to a reimbursable task that was terminated in December 1997. NOM also
inappropriately transferred expenditures and obligations among NOM programs in fiscal years
2000 and 2001. We recommend that the Under Secretary of Commerce for Oceans and
Atmosphere require the Assistant Administrator of OAR to ensure that:

        1. OAR' s Chief Financial Officer, in consultation with NOM' s and the Department'
             Chief Financial Officers and the Department' s Assistant General Counsel for
             Administration, reviews the appropriateness of OAR' s retroactive transfer of prior
             fiscal- year expenditures from a NOM task to a reimbursable task.

       2. Department and                NOM policies and procedures for administrative control of funds
             are followed;

       3. The Director    ofETL ensures that the reasons for all accounting transactions, used to
             transfer expenditures or obligations related to appropriated- funds tasks, are fully
             supported by documentation in ETL' s accounting records; and

       4. The Director    ofETL ensures that obligations of appropriations are fully documented
             in ETL' s accounting records. (See page 15.

In addition, our audit found that ETL' s over-reliance on reimbursable work to support its staff
places the lab at significant financial risk. Reimbursable activities are a major source of funding
for ETL. For example , the lab' s total obligations for fiscal year 2000 were approximately $19
million~ 54 percent of which was attributable to reimbursable projects. For fiscal year 2001
ETL's total obligations were $15.5 million , 43 percent of which came from reimbursable work.
In fiscal year 2902 , ETL' s total obligations were $12. 9 million, 35 percent of which came from
reimbursable work.

In addition to our own concerns about ETL's over-reliance on reimbursable funding and related
problems , we are aware that in an April 2002 memo, OAR' s former Assistant Administrator
recognized many of the same issues and directed ETL to refocus its mission on NOM
objectives, bring stafflevels into balance with its base funding, and increase its vigilance over
accounting procedures. While these actions are commendable, more remains to be done. We
recommend that the Under Secretary for Oceans and Atmosphere direct the Assistant
                                                   *****


u.   S.    Department of Commerce                                      Report No. BTD- 14852- 0001
Office of Inspector General                                                           September 2003


Administrator of OAR to ensure that ETL develops a business plan that is consistent with
NOM' s mission and funding realities and reduces reliance on reimbursable work. (See page
19.

Finally, we found two instances of apparent reprogramming without prior Congressional
notification. In the first instance in June 2001 , ETL transferred $536 000 of expenditures
from a DOD reimbursable program to a NOM program without Congressional notification.
Commenting on this transfer, an e-mail from the Department' s Office of General Counsel to
a NOM budget official noted that it appeared that a reprogramming of funds occurred
when NOAA funds that were not intended to pay costs of the DOD program were expended
for that purpose. If, in fact, the transfer was a reprogramming, the required Congressional
notification was never made. In another instance, the notification for a transfer of $2 million
in funds between ETL and OAR in December 2001 was not made until late September 2002.
We recommend that the Under Secretary of Commerce for Oceans and Atmosphere:

          1. Request an opinion from the Department' s  Office of General Counsel on whether the
             shifting of $536 000 in expenditures from the FY 2000 DOD task to NOAA'
             Atmospheric Program was also an instance of reprogramming and requires notification to
             Congress; and

          2. Ensure Congress   is properly and timely notified before any future reprogramming occurs.
             (See page 22.



In responding to our draft report, NOM concurred with our recommendations and described
actions either already taken or planned to tighten fiscal controls within ETL such as:
(1) establishing a panel to examine the role and future ofETL with respect to science priorities
and partnerships; (2) establishing deputy chief positions within each division to monitor and
project division needs more regularly; (3) creating new management documents to assist with
financial management; (4) convening a panel of senior managers to conduct a fiscal and
operational assessment; (5) instituting a hiring freeze; and (6) directing that the staffbe reduced
from 60 to 40 by fiscal year 2005. While we believe that these are steps in the right direction, we
expect additional planned actions th,at specifically address each report recommendation to be
described in NOM' s audit action plan. NOM' s response in its entirety is attached as
Appendix I.




                                                    111
 u.s. Department of Commerce                                             Report No. BTD- 14852- 0001
 Office of Inspector General                                                             September 2003


                                             INTRODUCTION

The National Oceanic and Atmospheric Administration (NOM) is charged with assessing and
predicting changes in the Earth' s environment and protecting marine and coastal resources. The
primary center for NOM research and development is the Office of Oceanic and Atmospheric
Research (OAR). OAR consists of 12 laboratories and research centers , whose principal role is
to integrate new insights and discoveries from their respective fields into NOM operations for
the benefit of the nation.

One of those centers , the Environmental Technology Laboratory (ETL) in Boulder, Colorado
develops remote sensing instrumentation that allows meteorologists and oceanographers to peer
inside the Earth' s atmosphere and oceans. The lab was formed in 1967 as the Wave Propagation
Laboratory, and was renamed in 1992. ETL works with a variety of organizations-local
federal, and international agencies , as well as universities and private corporations-to improve
understanding of the atmospheric and oceanic processes that govern our weather and climate,
and to develop new remote sensing systems. ETL staff is a mix of federal employees , technical
and support contractors , and scientists from research institutes jointly sponsored by NOM and
two universities.

                          OBJECTIVES, SCOPE, AND METHODOLOGY

In 2000- 2001 , the Department of Defense s Office of Inspector General conducted an audit of
the DOD/ETL Advanced Sensor Applications Program (ASAP) Joint Project. The DOD OIG
audit concluded that from fiscal years 1998 through 2000 , ETL inappropriately charged $1.
million of unrelated or unsupported costs to the joint project. 3 The DOD bIG audit examined
only DOD funds related to its ASAP project at ETL.

Prompted by the DOD OIG audit of its ASAP project at ETL , we subsequently conducted a
performance audit ofETL operations and activities to (1) evaluate ETL's compliance with
applicable laws, regulations , policies , and procedures; (2) assess its internal controls; (3)
examine its administration, management , and oversight of activities for which it receives
reimbursement; and (4) determine whether it properly identifies , records , and recovers
reimbursable costs. The audit examined ETL operations and activities that occurred during fiscal
years 2000 2001 , and through May_ of2002. We also obtained additional updates and conducted
limited follow-up and financial analysis through May 2003.

To ascertain ETL' s performance in these four areas , we reviewed applicable laws , r~gulations
policies , procedures, and practices; and examined documentation submitted by NOM officials,
including management reports and accounting records. We also interviewed key officials at ETL
in Boulder, Colorado , OAR headquarters , and NOM' s Office of Finance and Administration.




3 Department of Defense Office of Inspector General
                                                  , November 2001 Advanced Sensor Applications Program
Joint Project Report No. D-2002-0l7. Arlington, VA: U. S. Department of Defense.
u.   S.   Department of Commerce                                     Report No. BTD- 14852- 0001
Office of Inspector General                                                          September 2003


Because ETL makes extensive use of accounting adjustments to transfer expenditures and
obligations from one task to another, we initially asked NOM' s Finance Office to provide
documentation ofETL accounting adjustments of $50 000 or more made in FY 2000- 01.
However, because the Finance Office processes these accounting adjustments in batches that
combine various dollar amounts, we examined all ETL accounting adjustments in the batches we
received, including those under $50 000.

As reported in our audit reports of NOM and the Department' s financial management systems
for fiscal years 2000 through 2002 , an independent public accounting firm reviewed NOM'
financial statements for those fiscal years and reported that NOM' s financial management
system did not prevent over-obligations at the obligation line- item level , and line- item reporting
of obligations was not reliable. Specifically, the system did not have automated procedures or
controls within it to prevent an over-obligation. Instead, NOM used a manual process , relying
on its budget officers and program managers to monitor and control the obligational activity
against the operating plan.

Since NOM' s data reliability could not be established, we did not test the reliability of its
computer- generated data that was used during our audit. However, such data was relied on and
used by NOM managers. For this reason , we believe that it was reasonable for us to use this
data in meeting the objectives of our audit. In addition, other documentary and testimonial
evidence obtained during the course of our audit supported the conclusions and
recommendations based on our examination of our sample ofETL' s accounting adjustments in
FY 2000- 01. These conditions are discussed in greater detail in later sections of this report.

Our audit was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978 , as amended, and
Department Organization Order 10- , dated May 22 , 1980 , as amended.
 u.s. Department of Commerce                                                  Report No. BTD- 14852- 0001
 Office of Inspector General                                                                    September 2003


                               FINDINGS AND RECOMMENDATIONS

Our audit ofETL identified four major problems with ETL financial accounting and
management practices:

               Significant noncompliance with the Economy Act, 31 U. C. 1535. TheEconomy
               Act requires that payments or adjustments of amounts paid be based on the
               actual cost of goods or services provided. However, in many instances ETL did
               not recover the full cost of providing services to other agencies. The resulting
               budgetary shortfalls prompted ETL to inappropriately adjust accounting records by
               shifting expenditures among unrelated reimbursable tasks and among appropriated-
               funds tasks and reimbursable tasks.

               Significant noncompliance with Department and NOAA policies and procedures
               for adequate funds management and administration. After overspending on
               certain research programs , ETL inappropriately adjusted its accounting records to
               transfer prior- year expenditures between a NOM task and a reimbursable task and
               inappropriately transferred expenditures and obligations among NOM programs
               without proper supporting documentation.

               Overreliance on reimbursable work to cover staffing costs. For fiscal years 2000­
               2003 , an average of 45 percent ofthe lab' s total obligations were attributable to
               reimbursable tasks. ETL reports that funding from DOD alone has accounted for 20
               percent of its annual funding in recent years. However, in fiscal year 2000, the lab
               experienced a $2. 2 million overrun when DOD unexpectedly withheld program
               funding. Relying so heavily on non-NOM sources of funding leaves ETL
               financially vulnerable because it has more employees than its budget can support.

               Failure by NOAA to notify Congress that appropriated funds had been
               reprogrammed. Recent appropriations laws have required 15- day advance notice of
               NOM' s intention to reprogram funds beyond allowable levels stipulated in its
               appropriation act. NOM failed to provide such notification in fiscal year 2001
               when ETL transferred $536 000 of expenditures from a DOD reimbursable task to a
               NOM program -- a transfer that appears to have been a reprogramming. Also in
               2001 (December), NOM reprogrammed $2 million to cover amounts transferred
               among programs in prior years , but did not notify Congress until September 27
               20Q2-just 3 days before the end of the fiscal year. By circumventing tb.e advance
               notification requirement , NOM precluded Congressional consideration and approval
               of the transfers.

The details of our findings and recommendations follow.


4 For this report, "

                 appropriated-funds task" refers to an activity that was funded through NOAA direct appropriation.
 Reimbursable task" refers to an activity that was paid for with non-NOAA funds.
                                                            ,"                           ...
                                                                                          , ".       , "



 u.s. Department of Commerce                                                    Report No. BTD- 14852- 0001
 Office of Inspector General                                                                      September 2003


I. ETL Needs to Improve Full Cost Recovery for Reimbursable Tasks
Federal law, federal policy, Departmental standards , and NOM policy all require agencies to
recover the full cost of providing reimbursable services to other agencies. Regarding an order
by an agency with another agency for goods or services, the Economy Act, 31 USC 1535 , states
 Payment may be in advance or on providing the goods or services ordered and shall be for any
part of the estimated or actual cost as determined by the agency or unit filling the order... .

The Office of Management and Budget' s (OMB) Circular A- , User Charges, establishes
federal policy regarding fees assessed for Government services and for sale or use of
Government goods or resources. According to OMB Circular A-25, " It is the objective of the
United States Government to ... ensure that each service , sale , or use of Government goods or
resources provided by an agency to specific recipients be self-sustaining

The Department' Accounting Principles and Standards Handbook? states The cost of activities
performed will be determined in accordance with Chapter 12 , Section 5. Full Cost, of this
Handbook. Accordingly, the accounting records shall be the official source of such cost
determinations. Section 5 of Chapter 12 defines full , direct , and indirect costs.

NOM'       Budget Office Reimbursable Task Plan Handbook (RTP Handbook)        states It is
NOM' s policy to recover full costs , both direct and indirect, for performance of services for
others. " The RTP Handbook 
    also states If the sponsor does not pay for the cost overrun within
120 days , this portion of the bill will be charged to the program office s direct funds.

Our review of a sample of ETL accounting records from FY 2000- 01 revealed that:

         In fiscal year 2000 , ETL inappropriately used funds from one reimbursable task to
         finance cost overruns incurred in prior years by unrelated reimbursable tasks to make it
         appear that full costs had been recovered in those tasks.

         In fiscal year 2001 , ETL inappropriately transferred expenditures from a fiscal year 2000
         reimbursable task with a cost overrun to a FY 2001 appropriated- funds task.




5 Chapter 11
              , Fees and Revenues , Section 4 , User Fees , p. ll- 9. Department Administrative Order (DAO) 200­
states that each existing or future handbook or manual authorized by this Order will have the status and effect of a
DAO. The     Accounting Principles and Standards Handbook 
      prescribes accounting principles and standards to be
followed by the Department in the design and operation of an accounting system( s) and provides specific accounting
principles and standards against which financial management and accounting system(s) can be evaluated and
improved.
u.s. Department of Commerce                                        Report No. BTD- 14852- 0001
Office of Inspector General                                                        September 2003


A. ETL improperly charged expenditures from unrelated reimbursable tasks to DOD' s task

To the extent that full costs are not recovered on reimbursable tasks , NOM guidelines stipulate
that direct appropriations be used to finance reimbursable cost overruns. However, in fiscal year
2000 , ETL used funds provided by DOD to finance a number of cost overruns on unrelated

reimbursable tasks from prior fiscal years , and the resulting accounting records incorrectly
indicated that ETL had recovered full cost for those tasks.

In April 2000 , DOD provided $3. 5 million to ETL for a major reimbursable task. In June and
July 2000 , ETL transferred expenditures , totaling more than $343 000 from unrelated
reimbursable tasks conducted in fiscal years 1995 through 1999 , to the DOD task. Most of the
$343 000 was used to finance cost overruns in tasks conducted in fiscal year 1995 (43 percent)
and in fiscal year 1998 (49 percent). The remaining funds were applied to overruns in tasks
completed in fiscal years 1997 and 1999 (see figure 1). The task numbers for these prior- year
tasks were no longer active in fiscal year 2000 , but reportedly had not been closed by NOM'
Finance Office because they had outstanding unpaid costs.


                    Figure 1: Composition by Fiscal Year of $343, 000 in

                     Unrelated Costs Transferred to FY 2000 DOD Task

                                            FY99




                                                            FY95
                                                            43%
                            FY98
                            49%




                                                   FY97


Source: NOM Finance Office

According to NOM Finance Office officials , task numbers can only be closed on tasks that have
had no activity in the past year and have neither undelivered orders (unliquidated obligations)
nor outstanding unpaid costs. ETL' s administrative officer at the time signed the NOM
documents approving the transfers and OAR' s supervisory budget analyst signed as a reviewer.

Written comments accompanying the expenditure transfers stated that the transfers were an effort
to "move costs to clean up cost overruns " and "move cost overruns. " However, ETL could not
provide documentary evidence to support the appropriateness of these adjustments. The
authorizing ETL administrative officer confirmed that the availability of the $3. 5 million was
                                                                       , "



 u.   S.   Department of Commerce                                   Report No. BTD- 14852- 0001
 Office of Inspector General                                                       September 2003


viewed as an opportunity to remove the outstanding balances from the old task orders and thus
close these numbers. The administrative officer stated that the reimbursable funds were thought
to be available for those purposes since the objective of the DOD task, as stated in the
reimbursable agreement , was consistent with NOM' s mission.

It is our conclusion that ETL treated all funds as one pot of money and did not consider the
systematic recording and tracking of costs associated with individual tasks to be necessary
procedures. ETL' s lack of a system for the administrative control of its funds is discussed
further in Section II of the report.

B. ETL inappropriately transferred expenditures from a reimbursable task to an
appropriated-funds task

ETL failed to comply with policies and procedures for using acceptable and consistent cost
accounting methods , identifying accumulated costs with appropriate tasks, and recording and
documenting transactions. Moreover, OAR failed to establish necessary controls to preclude
ETL' s repeated significant cost overruns.

In FY 2000 , ETL incurred a $2. 2 million cost overrun for DOD' s task because DOD withheld
funding for its program with the lab , pending the program s restructuring. However, ETL had
not anticipated the reduced funding level , so in order to offset some of the overrun, ETL
deobligated $358 000 it had committed to the task but not spent. Then in June 2001 , ETL
transferred $536 000 of expenditures from the cost overrun to a task being performed under its
Atmospheric Programs , Weather Research account , with the notation Per our agreement
transfers being made to clear up 2M overrun on (FY 2000 DOD reimbursable task). " No
documentary evidence supporting these retroactive adjustments accompanied the transfers , nor
was ETL able to provide supporting documentation during our audit. Together, the deobligation
and the transfer of expenditures reduced the total unbilled task costs for FY 2000 to
approximately $1.3 . million, which OAR carried into fiscal year 2002.


The transfer of an expenditure or obligation incurred in one fiscal year to an appropriation not
available at the time of the expenditure or obligation raises the possibility that ETL obligated
funds in advance of an appropriation. Such an action raises the possibility that appropriation law
may have been violated. 

In addition , the transfer of $536 000 in expenditures from the cost overrun, along with the lack of
documentation- to support the transfer, indicates noncompliance by ETL and OAR ~ith NOM'
RTP Handbook 
    requirements that task managers anticipate cost overruns and get written
approval for them from the project' s sponsor, and that line offices (in this case , OAR) determine
the validity of adjustments to prior- year obligations (specifically, whether ETL' s transfer of
$536 000 in reimbursable expenditures from DOD' s task to an appropriated- funds task was
permissible).

The transfer of expenditures and lack of documentation also indicate noncompliance by ETL
with Department policy requiring that agencies record the full cost of performing work for
                                    ,"        , ", " , "                                    , "



 u.s. Department of Commerce                                                    Report No. BTD- 14852- 0001
 Office of Inspector General                                                                       September 2003


others , regardless of the amount of reimbursement involved. The Department' Accounting
Principles and Standards Handbook       states Full cost of performing work for others shall be
recorded for each project regardless of agreements made as to the amount of reimbursement.
This is done so that costs will be known on a historical basis for negotiation of future
agreements. ,,6 In addition, the Department' Accounting Principles and Standards Handbook
requires that all transactions be fully documented so that a clear audit trail is established.
Prescribing accounting control activities , the Department' s handbook states All transactions...

are to be fully documented so that a clear audit trail is established.

The transfer of $536 000 in expenditures from the cost overrun and the lack of supporting
documentation also indicate noncompliance by ETL with OMB' s Circular A- , concerning
federal policy regarding fees assessed for Government services , and with 31 U. C. 1535(b),
which states that payment under the Economy Act must be based on the actual cost of goods or
services provided.

 Subsection (a) of31 USC 1501 states An amount shall be recorded as an obligation of the
United States Government only when supported by documentary evidence of... . " and lists nine
criteria for recording obligations. 8 The statute requires documentary evidence to support the
recording in each instance. Chapter 7 of Volume II ofGAO' Principles of Federal
Appropriations Law    states Retroactive adjustments to recorded obligations , like the initial
recordings themselves , must be supported by documentary evidence. ,,9

We asked officials at NOM' s Office of Finance and Administration and OAR why they did not
question the ETL cost transfers. NOM budget officials said that such transfers and other
obligation data are outside their purview, while NOM finance officials said they do not
question cost transfers that have been approved in writing by a duly authorized agency
representative.

OAR officials stated that staff turnover at headquarters and inadequate monthly financial reports
from NOM hamper the office s ability to monitor ETL transactions closely, but noted that the
$536 000 transfer was in accordance with guidance in the      NOAA RTP Handbook.       The
handbook, revised October 2000 , states If the sponsor does not pay for the cost overrun within
120 days , this portion of the bill will be charged to the program office s direct funds. " However
what OAR officials failed to note w~s that the handbook also states that task managers are
responsible for ensuring that costs do not overrun agreement amounts , without prior written
approval of the sponsoring agency, and line offices are responsible for establishing necessary
controls in their Financial Management Centers to preclude cost overruns on tasks upder their
cognIzance.



6 Chapter 12
                , Managerial Cost Accounting, Section 6 , Work for Others , p. 12- 12.
Chapter 6 ,    Internal Controls , Section 6 , Accounting Control Activities , p. 6­
8 United States General Accounting Office
                                                 Principles of Federal Appropriations Law Second Edition, Volume II
GAO/OCG- 92- , December 1992 , Chapter 7 , Obligation of Appropriations , p. 7­
 Ibid. , p. 7­
 u.s. Department of Commerce                                                       Report No. BTD- 14852- 0001
 Office of Inspector General                                                                    September 2003


 C.    Inappropriate use of expenditure transfers suggests a cost recovery problem that OAR has
 been slow to address

 ETL' s repeated use of inappropriate expenditure transfers indicate a disregard for (1) NOM
 Department, and federal guidelines regarding internal controls and (2) the development and
 reporting of cost information, including the recording of full costs of performing work for others.

 In the summer of2000 , an OAR team reviewed ETL' s management controls and concluded that:
       ETL had overspent by a significant amount of reimbursable funding, necessitating
      borrowing from OAR headquarters to close their books. This overspending caused
      some funds having to be paid back out ofFYOl funds , which just perpetuated the
      funding problem. Potential overruns on other FYOO projects are still to be
      determined. " 1 0

 We believe that OAR' s practice of allowing ETL to utilize current fiscal year appropriations to
 satisfy obligations or expenditures incurred in prior years should be reviewed by OAR' s Chief
 Financial Officer, in consultation with NOM' s and the Department' s Chief Financial Officers
 and the Department' s Assistant General Counsel for Administration.

According to OAR data, ETL had 131 active reimbursable projects in fiscal year 2000. Thirty-
two of these operated within budget during FY 1999 , with no carryover of funds into 2000.
Forty- five had negative carryover amounts (overruns) of$2. 7 million. Fifty- four projects had
positive carryover amounts totaling more than $4. 7 million, thereby offsetting the overruns and
giving ETL a positive carryover from FY 1999 of$2 million for all 131 reimbursable projects
(see table 1).

In FY 2001 ETL had 148 active reimbursable projects , of which 54 operated within budget.
Thirty eight had negative obligation carryovers , totaling more than $5.3 million. (Approximately
$2. 2 million of this amount was the overrun ETL incurred when DOD withheld FY 2000
funding-see page 6. ) Fifty-six had positive obligation carryovers , totaling more than $5.
million, leaving a deficit of approximately $57 000 (see table 1).




l~OAA Office of Oceanic and Atmospheric Research, 2000.
                                                                  Management Control Review Report on
Environmental Technology Laboratory.          Washington, DC: U. S. Department of Commerce , p. 4.
                     , "



u.s. Department of Commerce                                                             Report No. BTD- 14852- 0001
Office of Inspector General                                                                            September 2003




                                                       FYObligation
                                                             2000
                                          Balances of ETL Reimbursable Tasks in FY 2000- 01
                                                                                                  FY 2001
                                                                                                           $000

                                          No. of Tasks
                                                                Carryover                 No. of Tasks Obligation

     Tasks with no
     Obli ation Carryover
     Tasks with Negative
                                                                Amounts     $0 54
                                                                     ($2 730)
                                                                                                          Carryover
                                                                                                          Amounts


                                                                                                              ($5 324)
     Obli ation C over
     Tasks with Positive                                                   746                                     267
     Obli ation C over
     Net Amount for All                               131                  016                   148              ($57)
     Active Tasks

Although NOM' s current policy allows the cost overruns to be transferred to direct
appropriations , we believe that this policy is not consistent with sound management practices
that would properly identify accumulated costs with their corresponding tasks. Nor is NOM'
current policy consistent with the Department' Accounting Principles and Standards Handbook
which states Deliberately charging the wrong account for purposes of expediency or
administrative convenience , with the expectation of rectifying the situation by a subsequent
transfer, violates 31 U. C. sec. 1301(a). The transferred funds would be used for a purpose
other than that for which they were originally appropriated. ,,11

D. Letters of intent do not protect ETL against funding shortfalls

OAR' s first notable attempt to deal with negative obligation carryovers was a May 2000
memorandum from the budget office recommending that laboratories request a letter of intent
from sponsor agencies before obligating funds. It was NOM' s belief that a letter of intent
signed by the sponsor agency essentially authorized the laboratory to obligate the funding and
ensured that the funding would be forthcoming.

In fiscal year 2002 , for example , DOD' s FY 2002 letter of intent , dated October 1 , 2001
committed a total of$2. 88 million for the project, including funding for an independent
contractor. However, DOD made its first disbursement of funds ($1. 6 million) in April 2002 for
FY 2002 work that had been under way since October 2001 and covered by NOM resources in
the interim.



Although we acknowledge OAR' s attempt to strengthen its internal control on funding by
recommending the use of letters of intent , we believe the action does not provide protection
against significant financial risk. GAO guidance describes a letter of intent as a preliminary
document that mayor may not constitute an obligation ; such a letter, therefore , does not
adequately protect ETL against funding shortfalls.


11
     Chapter 7 ,   Administrative Control of Funds , Section 6 , Actions Prohibited, p. 7- 11.
 u.s. Department of Commerce                                                     Report No. BTD-14852- 0001
 Office of Inspector General                                                                  September 2003


E. Critical MOU did not receive required Office of General Counsel legal review
In April 2002 , NOM and DOD signed a new MOU, under authority of the Economy Act, to
continue the program initiated under a 1993 agreement. 13 OAR submitted the memorandum of
understanding to NOM' s Office of General Counsel. However, it was told by that office to
submit the agreement to the Department' s Office of General Counsel for approval. OAR neither
submitted the agreement to the Department' s Office of General Counsel , nor obtained a waiver
for the review.

NOM'        RTP Handbook
  states that all proposed agreements should be reviewed and cleared by
the Department' s Office of General Counsel unless the requirement is waived by that office in
writing. Departmental guidance regarding Memoranda of Understanding was issued by the
General Counsel of the Department in April 1994 , and addressed to Secretarial Officers , Heads
of Operating Units, Assistant General Counsels , Chief Counsels , and Bureau Counsels. This
memo from the Department' s General Counsel stated that all responsible Department officials
should seek prior legal advice and review from the Office of General Counsel when a
relationship with an outside organization was contemplated. It specified that Department
officials contemplating a relationship reflecting a joint project or an Economy Act transaction
should contact the Assistant General Counsel for Administration.

In addition, although the Office of Executive Budgeting and Assistance Management reported
that there are no written Department directives for managing "interagency and other special
agreements " or IOSAs (which include memorandums of understanding), draft Department IOSA
Handbooks , issued in September 2001 and April 2003 , stated that all agreements entered into
under the Economy Act must be cleared by the Office of the Assistant General Counsel for
Administration prior to signature , unless specifically exempted by that office.

F. Recommendations


We recommend that the Under Secretary of Commerce for Oceans and Atmosphere direct the
Assistant Administrator of OAR to ensure that:

              The Director of ETL ensures that the full cost of providing services for others is
              recovered;




12 U.
     S. General Accounting Office , December 1992.  Principles of Federal Appropriations Law Volume II, 2nd ed.
GAO/OGC- 92- , Chapter 7 , Obligation of Appropriations , pp. 7- 10.
13
   The 1993 agreement did not have a specific termination date , stating only that it may be terminated at any time by
mutual agreement between the parties or upon three months written notification by either party. The agreement was
not subject to periodic review. In a September 2000 report on interagency agreements , we wrote that agreements
should have a derIDed perfonnance period, or the agreement should have a provision for a periodic review and
amendment by mutual consent of the parties (Inspection Report No. IPE- 9460 Improvements Are Needed in
Commerce Agencies ' Implementation and Oversight of Interagency and Other Special Agreements).
 u.   S.   Department of Commerce                                            Report No. BTD- 14852- 0001
 Office of Inspector General                                                                   September 2003


                The Director of ETL ensures that the reasons for accounting transactions , used to
                transfer expenditures or obligations related to reimbursable tasks , are fully
                documented in ETL' s accounting records;

                OAR' s Chief Financial Officer, in consultation with NOM' s and the Department'
                Chief Financial Officers and the Department' s Assistant General Counsel for
                Administration, reviews the appropriateness of OAR' s practice of utilizing current
                fiscal year appropriations to satisfy obligations or expenditures incurred in prior
                years; and

                Compliance with requirements for legal review of agreements , as contained in
                NOM' Reimbursable Task Planning Handbook, 
      is achieved.

            NOAA' s Response to Recommendations

In responding to the draft report, NOM concurred with the four proposed recommendations.
NOM also described actions already taken to tighten fiscal controls at ETL, such as convening
a panel of senior managers to conduct a fiscal and operational assessment ofETL and
establishing deputy chief positions within each division to monitor and project division needs on
a regular basis. NOM' s response in its entirety is attached as Appendix r.

            OIG Comments


We commend NOM for actions already taken to tighten fiscal controls within ETL. However
while we believe that these are steps in the right direction, we expect additional planned actions
that specifically address each recommendation to be described in NOM' s audit action plan.

II. ETL Needs to Improve Internal Controls for Accounting and Funds Management
The Department' Accounting Principles and Standards Handbook
         establishes policy and
prescribes a system for the administrative control of all funds in Departmental offices and
operating units. According to NOM' Budget Handbook for appropriations and funds that are
entirely within a Line Office , primary responsibility for fund control resides with that Assistant
Administrator. 14 For ETL , primary. responsibility for fund control resides with the Assistant
Administrator of the Office of Oceanic and Atmospheric Research.

According to tbe Department' s Handbook, the Departmental accounting system mu~t provide
timely disclosure of total valid obligations incurred to date and total budgetary resources
available for obligations within each apportionment, allotment, or other administrative
subdivision. ls The Department's Handbook also prescribes that for bureau and subsidiary


14
   NOAA Budget Handbook, Chapter 2 , Budget Execution, Section 2 , Budget Execution Policies and Procedures , a.
Administrative Control of Funds , p. 16.
15
   Chapter 7 , Administrative Control of Funds , Section 9 , Relationship of Accounting and Fund Control Systems
pp. 7- 17 - 7- 18.
 u.   S.   Department of Commerce                                                 Report No. BTD- 14852- 0001
 Office of Inspector General                                                                         September 2003


accounting systems , all transactions are to be fully documented so that a clear audit trail is
established. 16



With regard to obligations of appropriations , the NOAA Budget Handbook 
   refers to the
conditions set forth in 31 U. C. 1501 , which states that amounts recorded as obligations of the
    S. government must be supported by documentary evidence. Although 31 USC 1501 does not
discuss transfers of obligations , guidance in Chapter 7 of Volume IT of GAO' Principles of
Federal Appropriations Law 
   also requires documentary evidence for retroactive adjustments to
recorded obligations.

As reported in our audit reports of NOM and the Department's financial management systems
for fiscal years 2000 through 2002 , an independent public accounting firm reviewed NOM'
financial statements for those fiscal years and reported that NOM' s financial management
system did not prevent over-obligations at the obligation line- item level , and line- item reporting
of obligations was not reliable. Specifically, the system did not have automated procedures or
controls within it to prevent an over-obligation. Instead , NOM used a manual process, relying
on its budget officers and program managers to monitor and control the obligational activity
against the operating plan.

Our review of a sample ofETL accounting records from FY 2000- 01 revealed that:

            In fiscal year 2000 , ETL inappropriately and retroactively transferred expenditures 17                for

            fiscal years 1995- 97 from a NOM- funded task to a reimbursable task completed in
             1997.

            In fiscal years 2000 and 2001 , ETL inappropriately transferred expenditures and
            obligations 18 between NOM programs.

A. ETL improperly transferred expenditures from a NOAA task to a reimbursable task

Neither ETL nor OAR officials could provide documentation to support the validity of almost
$84 000 in retroactive adjustments. In April 2000 , ETL moved expenditures of almost $84 000
from a NOM- funded task performed during fiscal years 1995- 97 and charged these
expenditures to an unrelated reimbursable task that was terminated in December 1997.

One OAR budget official speculated that the transferred expenditures might have been charged
initially to the NOM project because the funds for the reimbursable task were not )!et available
and that the transfer took place once those funds were received from the sponsor. However, in
the absence of supporting documentation, this explanation is counter- intuitive, given the timing

16
   Chapter 6, Internal Controls , Section 6 , Accounting Control Activities , p. 6­
17
   With respect to provisions of the Antideficiency Act (31 u.S. C. 1513- 1514), a term that has the same defInition as
outlay, i.e. , the issuance of checks, disbursement of cash, or electronic transfer of funds made to liquidate a federal
obligation.
18
   Obligations incurred, i.e. , amounts of orders placed, contracts awarded, services received, and similar transactions
during a given period that will require payments during the same or a future period.
                                                                   , "



u.s. Department of Commerce                                       Report No. BTD- 14852- 0001
Office of Inspector General                                                      September 2003


of the transfer-April2000-to a reimbursable task that had been completed more than 2 years
earlier.

The undocumented transfer of prior fiscal- year expenditures from a NOM task to a
reimbursable task indicates noncompliance with guidance in Chapter 7 of Volume II ofGAO'
Principles of Federal Appropriations Law which states that retroactive adjustments to recorded
obligations must be supported by documentary evidence. ETL could not provide sufficient
documentation or a credible explanation for the $84 000 transfer to confirm that all appropriate
laws and regulations were complied with.

We believe that OAR' s Chief Financial Officer, in consultation with NOM' s and the
Department' s Chief Financial Officers and the Department' s Assistant General Counsel for
Administration, should review the appropriateness of these transfers.

B. ETL inappropriately transferred expenditures and obligations among NOAA programs in
fiscal years 2000 and 2001
In FY 2000 , a transfer of expenditures and obligations was made without any documentation to
support its validity, and ETL was unable to provide such documentation during our audit. In
August 2000 , OAR headquarters increased the availability of funds to ETL for NOM Climate
and Air Quality Research , Interannual and Seasonal Climate Research , by $175 000. The source
of these appropriated funds was the OAR Director s Discretionary Funds. In September 2000
ETL transferred approximately $127 000 in expenditures and obligations from tasks under
NOM' s Atmospheric Programs , Weather Research, to a task under NOM' s Climate and Air
Quality Research, Interannual and Seasonal Climate Research, citing "cost transfer to
appropriate task #" as justification (see figure 3).

According to an ETL official asked to explain the FY 2000 transfer funds were received very
late , and cost overrUns needed to be zeroed out to balance (for) NOM' s fiscal year closeout."
In our opinion, it appeared that ETL transferred expenditures and obligations from over-
obligated tasks under Atmospheric Programs , Weather Research , to use the increase in available
funds in Climate and Air Quality Research.
u.   S.    Department of Commerce                                           Report No. BTD- 14852- 0001
Office of Inspector General                                                                    September 2003


          Figure 3: Aug- Sep 2000 Transfers to OimateiAir Quality Research ($000)
                                           Cost Sample from NOAA Finance Office
 200


 150


 100




                          Inaease in Availability                    Expend itures & Obi igations T ransferrecJ


During our audit , we also found that no supporting documentation could be produced to justify
two transfers of expenditures and obligations made in FY 2001. In August 2001 , OAR
headquarters increased the availability of funds to ETL by $1 million-$500 000 for NOM'
Ocean and Great Lakes Programs , Marine Prediction Research, and $500 000 for NOM'
Climate and Air Quality Research , Interannual and Seasonal Climate Research. The source of
these appropriated funds was the OAR Director s Discretionary Funds. In September 2001 , ETL
transferred approximately $486 000 in expenditures and obligations from tasks under NOM'
Atmospheric Programs , Weather Research, to a task under NOM' s Ocean and Great Lakes
Programs , Marine Prediction Research , and $320 000 to a task under NOAA' s Climate and Air
Quality Research , Interannual and Seasonal Climate Research (see figure 4). Again, ETL noted
 charged to incorrect task #" as the reason for the adjustments.


      Figure 4: Aug- Sep 2001 Transfers to Ocean & Climate Research ($000)
500

400

300


200

100



           Availability Increase-Oceans Expend/Oblig to Ocean Availability Increase-Climate Expend/Oblig to Climate
                                                                                               , "
        . ..


 u.s. Department of Commerce                                                          Report No. BTD- 14852- 0001
 Office of Inspector General                                                                             September 2003


According to an ETL official, the lab made the accounting adjustments to move expenditures and
obligations from projects that ETL had overspent on, to projects funded in line items 19 to which
OAR had transferred funds to the lab. E-mail messages in August 2001 between OAR and ETL
indicated that the lab made the accounting adjustments to take advantage of available OAR
allocations of appropriated funds. In one message , an ETL official asked Any idea on where
you are going to put the allocation for the borrow so we can start doing our cost transfers? Is
there any way we can just move allocation money instead of doing cost transfers?        This
would also leave costs in their proper place for audit purposes. " An OAR official responded that
in order for OAR to transfer $2 million to ETL , several line items would have to be used. The
official also wrote that because NOM expected that any line item not vary by more than
percent , accounting adjustments to transfer costs must be made.

In our opinion , it appeared that ETL transferred costs from over-obligated tasks under
Atmospheric Programs , Weather Research, to use the increase in available funds in Ocean and
Great Lakes Programs and Climate and Air Quality Research. The e-mail exchanges support our
opinion that ETL transferred costs from over-obligated tasks to use the increase in available
funds received from OAR, transferring the costs to whatever appropriated- fund program for
which the availability of funds for ETL was being increased by OAR. It is also possible that
ETL' s record keeping was too disorganized for the lab to attribute task costs accurately.

ETL' s transfers of$127 000 in FY 2000 expenditures and obligations and $806 000 in FY 2001
expenditures and obligations between NOM tasks indicate noncompliance with Department and
NOM policies and procedures for (1) administrative control of funds and (2) fully documenting
all accounting transactions to establish a clear audit trail.

            Recommendations

We recommend that the Under Secretary of Commerce for Oceans and Atmosphere require the
Assistant Administrator of OAR to ensure that:

        1. OAR' s Chief Financial Officer, in consultation with NOM' s and the Department'
            Chief Financial Officers and the Department' s Assistant General Counsel for
            Administration , reviews the appropriateness of OAR' s retroactive transfer of prior fiscal-
            year expenditures from a NQM task to a reimbursable task;

        2. Department and        NOM policies and procedures for administrative control of funds are
            follow~d;

        3. The Director  ofETL ensures that reasons for all accounting transactions , used to transfer
            expenditures or obligations related to appropriated- funds tasks , are fully supported by
            documentation in ETL' s accounting records; and


19 In
        appropriations acts , a line item usually refers to an individual account or part of an account for which a specific
amount is available.
u.s. Department of Commerce                                         Report No. BTD- 14852- 0001
Office of Inspector General                                                          September 2003


       4. The Director ofETL ensures that obligations of appropriations are fully documented in
          ETL' s accounting records.

          NOAA' s Response to Recommendations

In responding to the draft report , NOM concurred with the four proposed recommendations.
NOM also described actions already taken to tighten fiscal controls at ETL, such as creating
new management documents to assist with fmancial management. NOM' s response in its
entirety is attached as Appendix I.

          DIG Comments


We commend NOM for actions already taken to tighten fiscal controls within ETL. However
while we believe that these are steps in the right direction , we expect additional planned actions
that specifically address each recommendation to be described in NOM' s audit action plan.

III.      ETL Should Decrease Its Reliance on Reimbursable Funds to Support Staff

Total staffing has decreased by almost 35 percent since the end of fiscal year 2000-from 149
September 2000 to 97 in April 2003 (see figure 5).


                         Figure 5: Breakdown of ETL Staff




                  FY 2000                        FY 2001                         April 2003
                         Federal              Joint Institute        Co ntract



Reimbursable activities are a major source of funding for ETL, and the lab still places substantial
reliance on reimbursable work to support its staff. Relying so heavily on non-NOAA sources of
funding leaves ETL financially vulnerable because it has more employees than its budget can
support. For fiscal years 2000- , an average of 45 percent of the lab' s totals obligations were
attributable to reimbursable tasks. For fiscal year 2000 , the lab' s total obligations were
approximately $19 million , 54 percent of which was attributable to reimbursable projects. For
u.s. Department of Commerce                                        Report No. BTD- 14852- 0001
Office of Inspector General                                                       September 2003


fiscal year 2001 , ETL' s total obligations were $15.5 million, 43 percent of which was related to
its reimbursable work. For fiscal year 2002 35 percent ofETL' s total obligations of$12.
million were due to its reimbursable work (see figure 6). Although there is a downward trend in
ETL' s obligations for reimbursable work , we believe that ETL' s continuing reliance on non-
NOM sources of funding places the lab at significant fmancial risk, and a business plan
consistent with NOM' s mission and funding realities should be developed.


                      Figure 6: ETL' s Total & Reimbursable Obligations ($M)
   $20

   $15

   $10




                    FY 2000                       FY 2001                       FY 2002


A. Over-reliance on   DOD for significant funding is risky

ETL reports that funding from DOD alone has accounted for 20 percent of its annual funding in
recent years. In its relationship with DOD , we believe the lab faces significant financial risk
from the continued late receipt of funding and the uncertainty of future funding.
Typically, DOD has disbursed funds to ETL at the midpoint or end of each fiscal year. In the
interim , ETL has used NOM resources to cover program costs. According to the current         NOAA
RTP Handbook using NOM funding to cover costs while awaiting sponsor reimbursement is
permissible. In a November 2000 e-mail , an ETL official justified this practice to OAR
headquarters: "If we had waited for the (DOD' s program) funding to arrive , most of the staff
associated with this important program would have been on furlough for 3 or 4 months each
year.

In FY 2000 , th~ lab experienced a $2. 2 million overrun when DOD unexpectedly withheld
program funding. Because ETL did not anticipate the reduced funding, it finished the year with
cost overruns of almost $2. 2 million , which DOD refused to pay. To help ETL cover expenses
in FY 2001 OAR shifted $2 million of appropriated funds to ETL " for FY01 year end to be
repaid in FY02. " According to an OAR budget official , the shift was directly driven by the
reduction in funding for DOD' s program , and ETL' s indication that it needed the $2 million in
NOM funds to cover salaries associated with DOD' s project and to cover prior- year cost
obligations. Data from the NOM Finance Office showed that as of April 2002, DOD' s task
 u.   S.    Department of Commerce                                           Report No. BTD- 14852- 0001
Office of Inspector General                                                               September 2003


from fiscal year 2000 still had approximately $1.3 million in unbilled costs. Relying on one
source of funding for so large a portion of its budget is inherently risky to ETL' s overall
financial stability.

B. ETL and OAR need NOAA support to implement a business plan consistent with NOAA'
mission and funding realities


In addition to our own concerns about ETL' s over-reliance on reimbursable funding and related
problems, we are aware that in an April 2002 memo to ETL , OAR' s former assistant
administrator wrote that the most important issue facing ETL was refocusing its mission on
NOM objectives , and that ETL's severe financial problems must be addressed in the current
and future fiscal years. He directed that ETL decrease reimbursable- funding from sources
external to NOM until such reimbursable funding makes up no more than 30 percent ofETL'
budget , which he felt should occur in fiscal year 2004. The goal for fiscal year 2003 was that
reimbursable funding from sources outside NOM account for no more than 40 p~cent ofETL'
budget. He also directed ETL to bring its staff levels into balance with its base funding and
increase its vigilance over accounting procedures. The former assistant administrator required
three immediate actions:

           . A hiring freeze for all federal , joint institute, and contract personnel;

              Briefings for lab employees on the recently approved Voluntary Early- Out    Retirement
              Authority; and

              The submission to OAR of a copy ofETL procedures for avoiding over-expenditure of
              appropriated and reimbursable funds. Beginning June 1 , 2002 , ETL was to file quarterly
              spending reports on appropriated funds and full-time equivalents to OAR.

ETL' s acting director executed those actions , and also implemented the following additional
actions:

              Instituted new procedures to minimize travel costs;

              hnplemented new procedures to limit purchases of equipment and other items , including
              purchases using credit cards;

              Called for new performance plans , which will reflect NOM-relevant milestones; and

              Required all proposals for reimbursable work to be approved by the director at the pre-
              proposal stage.

In April 2003 , ETL provided us with an update on its financial and organizational status.
According to ETL, it is committed to reducing its reliance on reimbursable funds by raising its
NOM funding levels and reducing its reliance on reimbursable funds. However, ETL officials
also said that significantly raising NOM base funding levels is a multi- year endeavor. For
u.s. Department of Commerce                                          Report No. BTD- 14852- 0001
Office of Inspector General                                                       September 2003


fiscal year 2003, ETL expects that its reimbursable funds will account for 44 percent of its FY
2003 budget, more than OAR' s goal of 40 percent.

OAR' s April 2002 memo called for reducing the number of Federal employees to 50 by the start
ofFY 2004 and to 40 by the start ofFY 2005. ETL hopes to reduce its Federal staff through
attrition and the possible authorization of early retirements, but does not expect to meet the
Federal staff goals called for by OAR.

NOM and OAR recently finalized their strategic plans. In response to NOM and OAR efforts
ETL began its own strategic planning process in January 2003. ETL' s effort is focused on
identifying a mission unique to NOM and better integrating its efforts into NOM and OAR
priorities. ETL expects to, complete its strategic planning process by the end ofFY 2003.

While we commend ETL and OAR for the reported actions taken thus far, considerable
challenges remain if ETL is to bring federal staff level into balance with its base funding.
addition to refocusing its mission on NOM objectives , a business plan for the management of
ETL' s financial and human capital resources and promotion of its services will enable ETL to
better plan the allocation of its resources under existing and future limits.

C.   Recommendation

We recommend that the Under Secretary of Commerce for Oceans and Atmosphere direct the
Assistant Administrator of OAR to ensure that ETL develops a business plan that is consistent
with NOM' s mission and funding realities and reduces reliance on reimbursable work.

       NOAA' s Response to Recommendation

In responding to the draft report, NOM concurred with the recommendation. NOM also
described actions already taken to tighten fiscal controls at ETL, such as instituting a hiring
freeze and directing that staffbe reduced from 60 to 40 by fiscal year 2005. NOM' s response
in its entirety is attached as Appendix I.

        OIG Comments


We commend NOM for actions already taken to tighten fiscal controls within ETL. However
while we believe that these are steps in the right direction , we expect additional planned actions
that specifically address the recommendation to be described in NOM' s audit acti~n plan.

IV. More Timely Congressional Notification for Reprogramming Is Needed

NOM has not always provided the required prior notice to its Congressional appropriations
committees before reprogramming funds. Congress has regulated reprogramming at the
Department of Commerce by statute (namely, Section 605(b) in Public Laws 106- 553 and        107­
77). Public Laws 106- 553 and 1O7- 77--the FY 2001 and 2002 appropriations acts for the
                                                                  , "




 u.s. Department of Commerce                                                      Report No. BTD- 14852- 0001
 Office of Inspector General                                                                         September 2003


 Department of Commerce and other agencies--require that when agencies plan to reprogram
 funds in excess of $500 000 or 10 percent 20 whichever is less , they must notifY the
 appropriations committees of both houses of Congress 15 days before the reprogramming
 occurs.

During the audit, we identified the following two instances in which timely Congressional
notification for reprogramming was not provided.

FY 2001. 
 It appears that ETL' s use of NOM' s appropriated funds to pay $536 000 of
reimbursable expenditures in FY 2001 was a shifting of resources that exceeded the threshold for
which Congressional notification is required. ETL shifted to NOM~ s Atmospheric Programs
expenditures of $536, 000 that had originally been charged to a FY 2000 reimbursable task
conducted for DOD. ETL' s shifting of $536 000 in expenditures from the FY 2000 DOD task to
NOM' s Atmospheric Programs was never reported to the appropriate Congressional
committees.

Our view that this transfer was a reprogramming is shared by others in the Department This
view was expressed in an e-mail from an attorney in the Department' s Office of General
Counsel , sent in November 2001 to a NOM budget official , which said, " ... as we discussed, it
appears that a reprogramming of funds already occurred at that point in time when NOM funds
which were not intended to pay costs of the DOD program were expended for that purpose due
to DOD' s decision not to provide reimbursement"

Department Administrative Order 203- Reprogramming of Budgetary and Personnel
Resources,  defmes reprogramming as the shifting of resources within an appropriations account
from one program , project, or activity2 to another, for purposes other than those outlined in the
budget justifications or expressed as Congressional intent in the enacted appropriations bill and
related committee reports.

FY 2002. 
  In December 2001 ofFY 2002 , ETL shifted $2 million from its Weather and Air
Quality Research program to OAR headquarters , explaining the $2 million shift as "repayment of
FYOI funds. " ETL shifted the $2 million to repay OAR for funds that OAR had made available
in fiscal year 2001 to help the lab cover a shortfall in operating funds that occurred in FY 2000
when DOD withheld its funding whjle it restructured its program at ETL.

A conference agreement between the House and Senate23 set FY 2002 appropriations for
Commerce. TJ;le Congressional RecorJ24 shows FY 2002 appropriations for NOM provided in
20
   Referring to funds provided under this Act, or provided under previous appropriations Acts to the agencies funded
by this Act that remain available for obligation or expenditure in fiscal year 2001 (P. L. 106- 553) or 2002 (p. L. 107­
77)
21 See
         Public Law 106- 553 and 107- , Section 605(b), Title VI General Provisions.
22 For
         the purposes of reprogramming, DAO 203- 13 defmes a program, project, or activity as "the most specific
budget item identified in the Congressional budget justifications; the enacted appropriation bill; and the House
Senate, and conference reports and explanatory statements associated with the appropriation bill.
23
   U.s. House.       Conference Report on HR. 2500 1O7 tb Cong. , 1st sess. , November 09 , 2001 , H. Rept. 7986.
24                                      tb Cong.
   Congressional Record.      2001. 107          , 1st sess. Vol. 147 , pt. 155 , H8018-H8023.
 u.s. Department of Commerce                                                 Report No. BTD- 14852- 0001
 Office of Inspector General                                                                   September 2003


the conference agreement, for each OAR laboratory. The amounts appropriated for ETL are
shown in the table below.

                        FY 2002 Appropriations for ETL, by NOAA Program
                                                      ($000)
                      Climate Research                                                   243
                      Weather and Air Quality Research                                   864
                      Ocean, Coastal and Great Lakes Research                            445
                      Total                                                              552

The amount of $6. 864 million was specifically reserved in the conference agreement for ETL'
Weather and Air Quality Research program. A $2 million shifting of resources exceeded the
reprogramming threshold specified in Section 605(b) of Public Law 107- 77.

According to GAO guidance , reprogramming is the utilization of funds in an appropriation
account for purposes other than those contemplated at the time of ap~ropriation, i.e. , it is the
shifting of funds from one object to another within an appropriation. 5 Reprogramming
procedures provide some Congressional control over spending flexibility without resorting to the
full legislative process.

In September 2002 , the Department' s CFO proposed to the Subcommittee on Commerce
Justice , State , the Judiciary, and Related Agencies , Committee on Appropriations , U. S. House of
Representatives , a reprogramming within NOM' s appropriation that included funds to pay $1.2
million of the FY 2000 cost overrun on ETL' s DOD reimbursable project and to repay $2 million
in ETL funds to OAR for the funds that had been used to cover ETL' s over-expenditure in FY
2001.

In a letter dated October 1 2002 , the subcommittee chairman responded to the Department'
CFO and asked why it took the Department 2 years to notify the appropriations committee of the
cost overrun on the DOD reimbursable program. He also noted that the proposed option
redirects funding from projects the committee intended to fund to a project the committee did not
agree to fund. The chairman wrote that the timing of the CFO' s request-3 days before the end
of fiscal year 2002-prec1uded the committee s consideration of the matter. He also wrote that
there appears to be a trend that the Department may be diminishing the committee s efforts to
fulfill its role in overseeing the operations of the Department.

While the Department' s request covered the remaining unbilled costs from the DOD project
(see page 6 and page 17) and repayment of the funds OAR used to cover ETL' s $2 million
overexpenditure (see page 20), Congressional notification in September 2002 occurred after
ETL had shifted the $2 million to OAR in December 2001.


2S
   u.s. General Accourtting Office , December 1992. Principles of Federal Appropriations Law Volume I , 2nd ed.
GAO/OGC- 91- , Chapter 2 , The Legal Framework, p. 2-25.
26
   Ibid. p. 2-28.
u.   S.    Department of Commerce                                      Report No. BTD- 14852- 0001
Office of Inspector General                                                           September 2003


We believe that while the shifting of $536 000 of expenditures in fiscal year 2001 and the
reprogramming of $2 million in fiscal year 2002 are matters of serious concern , they are
symptoms of the more serious underlying cause-OAR and ETL' s non-compliance with the
Department' s and NOM' s policies and procedures for administrative control of funds.

             Recommendations

We recommend that the Under Secretary of Commerce for Oceans and Atmosphere:

          1. Request an opinion from  the Department' s Office of General Counsel on whether the
             shifting of $536 000 in expenditures from the FY 2000 DOD task to NOM'
             Atmospheric Programs was also an instance of reprogramming, and requires notification
             to Congress; and

          2. Ensure Congress   is properly and timely notified before any future reprogramming occurs.

             NOAA' s Response to Recommendations

In responding to the draft report , NOM concurred with the recommendations , but did not
provide any specific action for addressing the recommendations. NOM' s response in its
entirety is attached as Appendix r.

             OIG Comments


NOM' s audit action plan should describe the specific actions to be taken to address the
recommendations.
                                                         .. .J.~"'~
                                                                      OF Co

                                                                                                             Appendix I
                                                                                  UNITED STATES DEPART~ENT OF COMMERCE
                                                                                  National Oceanic and Atmospheric Administration
                                                                                  NOAA FINANCE AND ADMINISTRATION
                                                            ~41Cs elf to          CHIEF FINANCIAL OFFICERiCHIEF AOMINISTAATNE OFFICER


                  SE? 3 0 2003




      - MEMORANDUM FOR: Michael Sears

                        Assistant Inspector General for Auditing

                                        /I~

        FROM:                           ~illiam Brogli~
                                              Chief Administrative Offic 


        SUBJECT:                              Environmental Technology Laboratory Needs to Improve
                                              Internal Controls for           Accounting and Funds Management
                                              Draft Audit Report No. BTD- 14852-3/August 2003

       We appreciate the opportunity to respond to your draft audit report on internal controls for
       accounting and funds management at NOAA Research' s Environmental Technology Laboratory
       (ETL). NOAA concurs with all 12 proposed                         recommendations.
  . NO A                       with the basic findings outlined in the draft audit report covering ETL
               A R e~eaTch agrees
      reimbursable activities. The report appears fair and balanced and l~oks beyond individual
      problems to identify the underlyi:ng causes behind the difficulties cited. Since the initial work of
      the audit, 24 months ago, NOAA Research has taken the following steps to tighten fiscal controls
      within ETL:

                              5/24/01 ~ Dave Evans , Assistant A~strator for OAR, formed an ETL
                              Millennium Panel to examine the role and future ofETL with respect to science
                              priorities and partnerships in light of the imminent retirement of the ETL Director
                              and several senior ETL management officials. The panel was chaired by David
                              Rogers of OAR.

                              8/5/01 - A preliminary financial analysis by NOAA Research prior to the fonnal
                              FYOI closeout revealed that ETL would ovemm appropriated funds by $2M due
                              in part, to a shortfall in a m~or reimbursable program.

                           8/20/01- The Rogers Millennium Panel report Was released. The report noted
                          that, although the caliber of research perfonned at ETL is very high, the reliance
                         . ~n reimbursable funds to sustain operations was a concern.




Printed on Recycled Paper ­
                 Sept./Dec. 02 - ETL took ' a number of steps to tighten fiscal controls within the
                 laboratory. Deputy Chief positions were established within each division. These
                 individuals, together with the ETL Budget Officer, were tasked with carefully
                 monitoring and proj ecting division needs on a monthly basis , and then on a
                 biweekly basis towards the end of the fiscal year. New management documents'
                 were created to help with the financial management. Projecting potential new
                 funds, Resource Allocation Chart showing distribution of types of funds and a
                 Base Tracking Chart showing all cUtrent and projected charge.

                 9/26/01 - Assistant Administrator Evans convened a panel of NOAA Research
                 senior managers to conduct a fiscal and operational assessment ofETL. The
                 panel was chaired by Dan Albritton, Director of the NOAA Research Aeronomy
               - Laboratory.

                12124/01   - Albritton Assessment Panel outlined two options for ETL' s future: (1)
                dissolving ETL and combining components with existing NOAA Research
                entities, or (2) working towards a smaller, more NOAA-focused laboratory.

                2/15/02 - Acting Director Neff for ETL, released a memo to all staff outlining
                NOAA Research concerns and actions tha~ need to be taken within ETL to
                monitor and control spending and better realign laboratory efforts with NOAA
                priorities.
                3/8/02 -   NOAA   Research instituted an ETL hiring fieeze.

                4/22/02 - Assistant Administrator Evans provided guidance for a smaller, more
                NOAA-focused ETL based on recommendations from the Albritton Assessment
              . panel., The Directive required that ETL base funds constitute 50% or more of the
                laboratory budget by FYO5, and that federal staffbe reduced from 60 to 40 by
                FY05, consistent with cUtrent ETL base funds.

- Since the issuance of the guidance memorandum from the Assistant Administrator of NOAA
 Research to ETL, ETL has reduced their Federal staff :ITom 63 to 56 employees. They will be
 offering Voluntary Separation Incentive Payments in FY 2004 to employees if authority is
 granted ftom the Office of Personnel Management as a tool to help them reduce their staffing in
 accordance with that memorandum.
